HHS/OIG, Audit -"Review of Selected Paid Claims with Therapy Services Submitted to Medicare
by Red Oak Home Health Services for the Period October 1, 2002 Through September 30, 2003,"(A-09-04-00050)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Selected Paid Claims with Therapy Services Submitted to Medicare by Red Oak Home
Health Services for the Period October 1, 2002 Through September 30, 2003," (A-09-04-00050)
July 8, 2005
Complete
Text of Report is available in PDF format (882 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether selected home health claims that included therapy services
provided by Red Oak Home Health Services (Red Oak) to Medicare beneficiaries met Federal requirements
and were appropriately paid.  We selected 74 claims billed by Red Oak with 10, 11, or 12 therapy
visits and paid by Medicare.  Of the 74 selected paid claims, 65 did not meet the Federal requirements
and were not appropriately paid resulting in overpayments of  $187,627 by Medicare.  The
overpayments occurred because Red Oak did not have effective quality assurance procedures to ensure
that all therapy services provided were reasonable and medically necessary for the beneficiaries conditions
and properly authorized by a physician.  We recommend that Red Oak refund $187,627 to the Medicare
program; identify and submit adjusted home health claims for Medicare overpayments received subsequent
to our audit period; and establish quality assurance procedures, including periodic independent review,
to confirm that (1) patient needs during the home health episode of care are properly reassessed and
(2) the level of care is adjusted accordingly to meet the requirement for medical necessity and is
properly authorized by a physician.  In response to our draft report, Red Oak disagreed with our
finding regarding medical necessity of services, but agreed with our finding that one claim was not
properly authorized by a physician.